    Report No. DODIG-2012-132 September 14, 2012




Project Planning Resulted in Outstanding Building
 Deficiencies and Decreased Functionality of the
  Main Fire Station at Naval Station Great Lakes




     This document contains information that
    may be exempt from mandatory disclosure
      under the Freedom of Information Act.
Additional Copies
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness, Operations, and Support, prepared this report. If you have questions, contact
the signer of the report.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
HVAC                          Heating, Ventilation, and Air Conditioning
IPT                           Integrated Product Team
LEED                          Leadership in Energy and Environmental Design
MILCON                        Military Construction
NAVFAC                        Naval Facilities Engineering Command
PPE                           Personal Protective Equipment
PRV                           Plant Replacement Value
PWD                           Public Works Department
RFP                           Request for Proposal
UFC                           Unified Facilities Criteria
                                    INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                     4800 MARK CENTER DRIVE
                                  ALEXANDRIA, VIRGINIA 22350-1500



                                                                                       SEP 14 2012

MEMORANDUM FOR NAVAL INSPECTOR GENERAL
               COMMANDER, NAVY REGION MIDWEST
               COMMANDING OFFICER, NAVAL FACILITIES ENGINEERING
                  COMMAND, MIDWEST
               PUBLIC WORKS OFFICER, PUBLIC WORKS DEPARTMENT
                  GREAT LAKES, NAVAL FACILITIES ENGINEERING
                  COMMAND, MIDWEST
               REGIONAL FIRE CHIEF, NAVY REGION MIDWEST


SUBJECT: Project Planning Resulted in Outstanding Building Deficiencies and Decreased
         Functionality of the Main Fire Station at Naval Station Great Lakes
         (Report No. DODIG-20 12-132)

We are providing this repott for your information and use. We performed the audit in response
to allegations in a Defense HotJ ine complaint concerning the planning and execution of the fire
station renovation project. We determined that although improvements to the main fire station at
Naval Station Great Lakes were justified, the renovation did not mitigate all potential health and
safety risks to fire station personnel, and emergency response till)es were worse because of the
reduced functionality of the fire station. The Navy incorrectly estimated that a renovation
project was the most economical method to address building deficiencies. However, building a
new fi re station would have saved approximately $6. 16 million over the life of the proj ect. We
considered management comments on a draft of this report when preparing the final report.

Comments on the draft of this report conformed to the requirements of the DoD Directive 7650.3
and left no unresolved issues. Therefore, we do not require any additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8866 (DSN 664-8866).

                                               If" ll   .      ;l   It
                                             ( '     1 c: ~I        ( O)lLv. "')   1

                                             Alice F. Carey               U
                                             Assistant Inspector General
                                             Readiness, Operations, and Suppott
Report No. DODIG-2012-132 (Project No. D2010-D000LC-0236.000)                               September 14, 2012


                Results in Brief: Project Planning Resulted in
                Outstanding Building Deficiencies and
                Decreased Functionality of the Main Fire
                Station at Naval Station Great Lakes
                                                              building a new fire station would have saved
What We Did                                                   approximately $6.16 million over the life of the
We initiated this audit in response to allegations to         project. In addition, the renovation resulted in
the Defense Hotline. Our overall objective was to             changes to the fire station layout, which caused
determine whether Project RM-005-07, “Repair Fire             firefighters’ average emergency response time to
Station Building 106,” at Naval Station Great Lakes           increase by approximately 17 to 18 percent.
was adequately justified and properly planned. We             NAVFAC Midwest officials initiated action to
also addressed the Defense Hotline allegations and            address deficiencies covered under the contractor’s
determined whether the fire station renovation                warranty for the repair project; however, building
design incorporated the appropriate criteria; whether         deficiencies remain.
replacing the fire station would have been more
economical than the renovation project; and whether           What We Recommend
the Navy would incur additional costs for basic items         We recommend that the Regional Fire Chief, Navy
not included in the renovation.                               Region Midwest, and the Public Works Officer,
                                                              Public Works Department Great Lakes, identify
What We Found                                                 existing building deficiencies and initiate appropriate
Facility improvements to the main fire station at             actions to correct the deficiencies. We also
Naval Station Great Lakes were justified; however,            recommend that Commander, Navy Region
after the renovation, fire station personnel were still       Midwest, and Commanding Officer, NAVFAC
subject to potential health and safety risks, and             Midwest, review the actions of personnel involved in
emergency response times were worse because of the            preparing and reviewing project documentation,
reduced functionality of the fire station. In addition,       determine who did not exercise due diligence in
we substantiated the complaint’s Hotline allegations.         planning a project to correct existing fire station
                                                              problems, and take appropriate administrative
The Navy incorrectly estimated that a renovation              actions.
project was the most economical method to address
building deficiencies. Personnel from the Navy                Management Comments and Our
Facilities Engineering Command (NAVFAC)                       Response
Midwest and Public Works Department, Naval                    We received comments from the Commanding
Station Great Lakes, did not properly plan efforts to         Officer, NAVFAC Midwest, in coordination with the
rebuild or renovate the fire station. Officials               Commander, Navy Region Midwest. Although not
included inaccurate information on the                        required to comment, the Inspector General,
DD Form 1391 to justify the renovation project,               Commander, Navy Installations Command, also
excluded several design requirements for fire                 provided comments to the report.
stations, and performed ineffective reviews of
planning documentation. Additionally, Great Lakes             All comments were responsive to the
Public Works Department officials overstated the              recommendations. Therefore, no additional
costs for building a new fire station. However,               comments are required. Please see the
                                                              recommendations table on the back of this page.

                                                          i
Report No. DODIG-2012-132 (Project No. D2010-D000LC-0236.000)              September 14, 2012


       Recommendations Table

               Management              Recommendations                No Additional
                                      Requiring Comment           Comments Required
       Commander, Navy Region                                   2.a, 2.b, 3.a, 3b
       Midwest

       Commanding Officer, Naval                                3.a, 3.b
       Facilities Engineering
       Command, Midwest

       Regional Fire Chief, Navy                                1
       Region Midwest

       Public Works Officer, Public                             1
       Works Department Great
       Lakes, Naval Facilities
       Engineering Command,
       Midwest




                                              ii
Table of Contents
Introduction                                                                          1


      Objective                                                                       1
      Defense Hotline Allegations Related to the Renovation of the Fire Station       1

      Mission of the Naval Station Great Lakes Fire Department                        1

      Required Documentation and Processes for Planning Facilities 

        Projects, Including Renovations                                               2

      History of the Fire Station Renovation                                          3

      Review of Internal Controls                                                     4


Finding. Project Planning Resulted in Outstanding Building Deficiencies and 

   Decreased Functionality of the Main Fire Station at 

   Naval Station Great Lakes                                                          5


      Fire Station Needed Improvements to Meet Fire Station Mission Requirements 6 

      Renovation Did Not Mitigate All Potential Health and Safety Risks               6

              Personal Protective Equipment Storage Was Inadequate                    7

              Washers and Dryers Should Be in a Protective Clothing 

                  Laundry Room                                                        8

              Lack of a Wash and Disinfection Room Created Potential Health Risks 8 

              Firefighter Alert System Was Outdated                                   9

              Firefighter Dorm Rooms Did Not Meet Unified Facilities Criteria 

                  Requirements                                                       10
              Additional Design Requirements Were Not Included in the 

                  Renovation Project                                                 11 

              Firefighters Claimed the Renovation Made Fire Station 

                  Conditions Worse                                                   11 

      Project Planning Documentation Was Incomplete and Inaccurate                   13 

              Mission Impact for New Construction Needed Additional Details          13 

              Project Justification for the Renovation Project Included Inaccurate 

                  Information                                                        14
              Inconsistent Explanations for Excluding Applicable Design Criteria     16 

      Review of Planning Documentation Was Ineffective                               17 

      Use of the Economic Analysis Checklist Will Improve Reviews of                 18 

          Planning Documentation 

      Navy Must Invest Additional Funds to Mitigate Deficiencies That Remain

          After the Fire Station Renovation                                          19 

      Decreased Functionality After the Renovation Delayed Firefighter 

          Response Times                                                             20 

Table of Contents (cont’d)
      Naval Facilities Engineering Command Midwest Initiated Some

         Actions to Correct Outstanding Deficiencies in the Fire Station       22 

      Conclusion                                                               22
      Management Comments on the Finding and Our Response                      22 

      Recommendations, Management Comments, and Our Response                   23 


Appendices

      A. Scope and Methodology                                                 26 

          Methodologies Used in DoD Office of Inspector General Calculations   26 

              Validation of Assumptions Used in the Economic Analysis          26 

              Adjustments to Initial Construction Costs Calculations           27 

              Adjustments to Life Cycle Cost Tables                            29 

              Calculation of Average Monthly Maintenance Requests              31 

              Calculation of Average Emergency Response Times                  31 

          Use of Computer-Processed Data                                       32 

          Prior Coverage                                                       33 

          Use of Technical Assistance                                          33 

      B. 	Briefing to Naval Facilities Engineering Command Midwest 

              on Outstanding Building Deficiencies                             34 

      C. 	Consolidated Responses to the DoD Office of Inspector General 

             Survey of Naval Station Great Lakes Firefighters                  38 

          Impact of Renovation on Firefighters’ Safety                         39 

          Impact of Renovation on Firefighters’ Ability to Respond 

             to Emergencies                                                    40 

          Impact of Renovation on the Functionality of the Fire Station        41 

          Impact of the Renovation on Firefighters’ Quality of Life            42 

          Changes to the Fire Station Needed to Improve Functionality and 

             Firefighters’ Quality of Life                                     43 

          Impact of a New Fire Station on Firefighters’ Ability to Perform

             the Mission                                                       44 

          Additional Concerns Related to the Fire Station                      44 

      D. Management Comments on the Finding and Our Responses 	                45 


Management Comments

     Department of the Navy 	                                                  51 

                                   FOR OFFICIAL USE ONLY



Introduction
Objective
We initiated this audit in response to allegations in a Defense Hotline complaint
concerning the planning and execution of the fire station renovation project.1 Our overall
objective was to determine whether Project RM-005-07, “Repair Fire Station
Building 106” at Naval Station Great Lakes (renovation project), was adequately justified
and properly planned. See Appendix A for a discussion of our scope and methodology.

Defense Hotline Allegations Related to the Renovation
of the Fire Station
We received a Defense Hotline complaint related to the renovation of the Great Lakes
Fire Station. The complainant made three main allegations.

    1. The renovation project will result in a fire station that does not meet the fire
       department’s needs because the contract design did not incorporate the Unified
       Facilities Criteria 4-730-10, “Fire Stations,” June 15, 2006 (UFC for Fire
       Stations).

    2. Replacing the fire station was more economical than renovating it because a new
       facility would cost the same as or less than a renovation.

    3. The Navy will incur additional costs for basic infrastructure items that were not
       included in the contract.

Our audit substantiated the complainant’s allegations. See the finding for a discussion of
each allegation.

Mission of the Naval Station Great Lakes
Fire Department
The main fire station, Building 106, at Naval Station Great Lakes was built in 1939. The
Great Lakes Fire Department provides a broad range of mission-essential services,
including fire protection and prevention, to Navy personnel and assets at Naval Station
Great Lakes, as well as the surrounding Lake County communities through a mutual aid
agreement. The Great Lakes Fire Department also serves as the first responders to
hazardous material incidents and, in FY 2008, began providing emergency medical
services.




1
  We obtained documentation that refers to the project as a “repair” of the fire station. Throughout the
report, we used the term “renovation” in place of “repair.”

                                   FOR OFFICIAL USE ONLY
                                            1
Required Documentation and Processes for Planning
Facilities Projects, Including Renovations
Office of the Chief of Naval Operations Instruction 11010.20G, “Facilities Projects
Instruction,” October 14, 2005 (Navy Instruction 11010.20G), provides policy related to
the planning requirements for the construction, maintenance, and repair of Navy
facilities. Navy Instruction 11010.20G also requires all facility projects to be
accomplished through the most economic means. To plan a facilities project, Navy
Instruction 11010.20G requires the following documentation.

    •   A DD Form 1391 (Form 1391) 2 should describe the project requirements for all
        special projects estimated to cost more than $500,000. The project justification
        must clearly describe the impact to mission, life-cycle economics, health and
        safety, environmental compliance, and quality of life if the project is not funded.

    •   Supporting documentation for the Form 1391 should fully communicate the
        location, scope, complexity, cost, and urgency of the project. Supporting
        documentation commonly includes a detailed cost estimate and environmental
        evaluations.

    •   An economic analysis should support the Form 1391 by identifying and
        comparing alternatives for achieving project objectives; and a verifiable cost
        estimate that correlates to the project description and scope.

The installation Public Works Department (PWD) generally prepares the Form 1391,
which goes through several levels of review, including the Regional Engineer, Naval
Facilities Engineering Command (NAVFAC) Midwest, and the Commander, Navy
Region Midwest. Navy Instruction 11010.20G states that the Regional Commander is
responsible for the validity and accuracy of facilities projects. 3 Navy
Instruction 11010.20G also requires the Regional Commander to validate any projects
that are estimated to cost more than $500,000 and have an estimated cost that exceeds
50 percent of the plant replacement value (PRV).

Once the Form 1391 for the fire station renovation was approved, the NAVFAC Midwest
PWD and Integrated Product Team (IPT) were responsible for planning the project, to
include development of specific project requirements and the request for proposal (RFP).
Figure 1 (on page 3) shows the organizational structure of Navy Region Midwest.



2
  The title of the Form 1391 changes based on the current fiscal year and the type of funding an activity
requests. For operations and maintenance funds, the title of the Form 1391 is “FYXX Special Projects
Program,” and for military construction funds, the title is “FYXX Military Construction Program.” In this
report, we discuss operations and maintenance and military construction funding requests over multiple
fiscal years; therefore, we refer to this document as the Form 1391 throughout this report.
3
  Navy Instruction 11010.20G allows the Regional Commander to delegate his responsibilities to the
Regional Engineer. We did not identify a delegation of responsibilities for the renovation project.


                                                    2
                     Figure 1. Navy Region Midwest Organizational Chart

                                        Commander, Navy Region Midwest




                    NAVFAC Midwest                                           Commanding Officer,
                    Regional Engineer                                      Naval Station Great Lakes




     Assistant Regional
                                 Operations Officer
          Engineer




                                                        Public Works Officer,
                                                                                               Public Safety Officer
                                                      Great Lakes Public Works
                                                             Department

     Capital Improvement
        Business Line
     (includes Integrated
        Product Team)                                       Facilities Management
                                                                                                         Fire Chief
                                                                    Division



       Asset Management
         Business Line                                     Facilities Engineering and
                                                             Acquisition Division



Source: DoD OIG Audit Team

History of the Fire Station Renovation
PWD officials tried several times to obtain funding to address deficiencies in the fire
station. In 2005 and 2006, PWD officials prepared Forms 1391 requesting military
construction (MILCON) funds to construct a new fire station because of deficiencies
affecting fire station functionality, as well as firefighter safety and quality of life.
However, the Navy did not select these projects for funding.

Since efforts to build a new fire station were unsuccessful, PWD officials prepared a
Form 1391 for a renovation project in 2007 but did not obtain funds for the renovation
project at that time. In April 2008, the Public Works Officer prepared a Form 1391 for
the renovation project, estimating that the project would cost approximately
$7.41 million. In October 2008, the Commander, Naval Installations Command,
informed NAVFAC Midwest that the Navy selected the project for funding. In
November 2008, PWD and IPT officials began preparing the RFP and finalizing the
Form 1391. In January 2009, the Commander, Naval Installations Command, and the
Deputy Assistant Secretary of the Navy for Installations and Facilities, approved the final
Form 1391, dated December 31, 2008, and sent the Form 1391 to Congress.4 The final


4
 Title 10 U.S.C. 2811 requires all repair projects estimated to exceed $7.5 million to be sent to Congress
for notification. Congressional notification is a period of 21 calendar days in which Congress has the
opportunity to comment on the project.


                                                            3
Form 1391, which had an estimated project cost of $7.80 million, stated that the scope of
the renovation project included bringing the facility into compliance with required
building codes and facilitating the relocation of the fire station emergency medical
technicians5 to the main fire station. The scope of the project also included replacing the
roofing, insulation, doors, fire sprinklers, emergency lighting, and fire alarms. In
addition, the scope included repairing water and wastewater piping and mechanical
systems to meet appropriate standards. In April 2009, the IPT prepared the final RFP and
awarded the contract on September 30, 2009, for approximately $5.48 million.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance programs are operating as intended
and to evaluate the effectiveness of the controls. Although the Navy had internal controls
over the planning process to ensure the project was properly planned, responsible
personnel did not effectively implement these controls. Navy Instruction 11010.20G
outlines the planning process; however, NAVFAC Midwest and Great Lakes PWD
officials did not follow this policy when planning efforts to renovate the fire station.
For example, officials did not consider all required design criteria when planning the
renovation project.

Further, NAVFAC Midwest and Naval Station Great Lakes did not have controls for
ensuring responsible officials performed effective reviews of project justification and
supporting documentation, which were inaccurate. Navy Instruction 11010.20G requires
documentation reviews before submitting projects for higher-level review and approval,
and NAVFAC has a checklist to assist analysts and reviewers in determining whether
economic analyses are correct, complete, and well-documented. However, NAVFAC
Midwest and Naval Station Great Lakes did not complete effective reviews using the
NAVFAC checklist when reviewing the renovation project documentation; therefore,
inaccurate information went forward for congressional review.

We discuss these deficiencies in the finding. We will provide a copy of the report to the
senior official responsible for internal controls at the NAVFAC Midwest and Naval
Station Great Lakes.




5
    Throughout the report, our reference to “firefighters” includes emergency medical technicians.



                                                       4

Finding. Project Planning Resulted in
Outstanding Building Deficiencies and
Decreased Functionality of the Main Fire
Station at Naval Station Great Lakes
Facility improvements to the main fire station at Naval Station Great Lakes were
justified; however, the renovation project did not mitigate all potential health and safety
risks to fire station personnel. This occurred because NAVFAC Midwest and Great
Lakes PWD officials did not properly plan efforts to rebuild or renovate the fire station.
For example, officials did not:

    	 provide accurate information on the Form 1391 and supporting documents to
       justify funding for the renovation project;

    	 include design requirements for fire stations, such as multiple unified facilities
       criteria (UFCs) and NAVFAC requirements; and

    	 perform effective reviews of planning documentation to identify errors and
       inaccurate data on the Form 1391 and supporting documentation.

As a result, we determined that, over a 32-year period,6 building a new fire station would
have cost approximately $6.16 million less than renovating the existing 70-year old7
structure. The Navy will need to invest additional funds to make the fire station
compliant with the required design criteria, address remaining maintenance problems,
and improve fire station functionality. For example, because NAVFAC Midwest
officials did not include proper storage requirements for personal protective equipment
(PPE) during project planning, the equipment was exposed to direct sunlight, which will
cause it to deteriorate faster and may increase risk of injury to firefighters. In addition,
the renovation resulted in changes to the fire station layout, causing firefighters’ average
emergency response time8 to increase by approximately 17 to 18 percent.




6
  NAVFAC P-442, “Economic Analysis Handbook,” October 1993, establishes economic lives for
permanent buildings like a fire station, and states that the economic life for these structures should not
exceed 25 years. However, the Planner, PWD, used a 32-year economic life for the economic analysis.
7
  The fire station was 70 years old when the renovation project began in 2009.
8
  Emergency response time includes time for dispatch, turnout, and travel time. Turnout time is the amount
of time starting when units are notified of the emergency to the beginning point of travel time. Because
there are many variables that can affect the total average response time, we used turnout time as emergency
response time for the purposes of this report.


                                                    5

Fire Station Needed Improvements to Meet Fire Station
Mission Requirements
Facility improvements to the main fire station at Naval Station Great Lakes were
justified. In 2008, the Navy Bureau of Medicine transferred the responsibility for
emergency medical services to the Commander, Navy Installations Command, expanding
the mission of the Naval Station Great Lakes Fire Department and requiring additional
living quarters and office spaces in the main fire station. The fire station was not
gender-compliant, as required by the Equal Employment Opportunity Act of 1972, and
according to fire station maintenance logs, had significant deficiencies with the roof and
exterior walls and recurring problems with the heating, ventilation, and air conditioning
(HVAC), plumbing, and electrical systems. The maintenance logs also indicated that
asbestos was present in the building. Therefore, the main fire station needed
improvements.

Renovation Did Not Mitigate All Potential Health and
Safety Risks
The renovation project did not mitigate all potential health and safety risks. One of the
three Defense Hotline allegations related to whether the fire station was compliant with
the UFC for Fire Stations after the renovation. The complainant alleged that the fire
                       station renovation did not bring the facility into compliance with
  We substantiated
                       the UFC for Fire Stations. We substantiated this allegation and
  this allegation…
                       identified additional design criteria, which officials did not
consider when planning the renovation project.

On May 29, 2002, the Under Secretary of Defense for Acquisition, Technology, and
Logistics, issued a memorandum stating that the Department of
Defense MIL-STD-3007F, “Standard Practice for Unified Facilities Criteria (UFC) and
Unified Facilities Guide Specifications,” April 1, 2002,9 sets forth guidance for
developing and maintaining unified facilities design and construction criteria. The
memorandum also states that officials are required to use the UFC to plan, design,
construct, sustain, restore, and modernize facilities. The UFC for Fire Stations states that
it is crucial for the fire station design to accommodate the equipment, functional
requirements, and safety of firefighters. The UFC for Fire Stations also states that
planning personnel must use the standards outlined in the UFC when assessing the extent
of improvements needed to existing fire stations. The UFC for Fire Stations requires
planners to use the standards outlined in it to plan all renovation projects, regardless of
budgetary constraints. Therefore, officials must plan renovation projects in accordance




9
  The Defense MIL-STD-3007F was updated in February 2006 and again in December 2006. However, the
memorandum for the Under Secretary of Defense for Acquisition, Technology, and Logistics, mentioned
the 2002 version of the policy.


                                                6

with the UFC for Fire Stations. However, the Navy’s failure to comply with the UFC for
Fire Stations exacerbated health and safety risks to the firefighters related to storage for
PPE, laundry facilities, wash and disinfection rooms, alert systems, and dorm rooms.

PPE Storage Was Inadequate
The storage area for PPE in the fire station did not comply with the manufacturer’s
requirements for storage and maintenance of equipment or the UFC for Fire Stations,
which increased the firefighters’ risk of injury. PPE, which includes protective garments
worn by firefighters, was designed to protect individuals against health and safety
hazards. According to the Fire and Emergency Manufacturers and Services Association,
Inc., exposure to direct sunlight will cause the materials in the protective ensemble to
deteriorate, and proper storage of the PPE can extend its life, maintain its performance,
and reduce potential health hazards. The manufacturer for the PPE worn by Great Lakes
firefighters stated that improper storage may result in damaged PPE and could increase
the risk of death, burns, injuries, diseases, and illnesses. The UFC for Fire Stations
                                                                requires PPE to be stored in
  Figure 2. PPE in Stored in Open Bay and Exposed
                                                                a negatively pressurized10
        to Direct Sunlight After the Renovation
                                                                room with a dedicated
                                                                exhaust vented to the
                                                                outside to ensure emissions
                                                                from the equipment are
                                                                vented directly outside,
                                                                instead of into the fire
                                                                station. Before the
                                                                renovation project,
                                                                firefighters stored PPE in
                                                                enclosed lockers located
                                                                inside the physical training
                                                                room. While the training
                                                                room was not a negatively
                                                                pressurized room, the PPE
                                                                was not exposed to sunlight
Source: DoD OIG Audit Team.                                     when stored. However,
                                                                after the renovation project,
the storage area for firefighters’ PPE was relocated to open areas in the apparatus bay,
where the PPE was directly exposed to sunlight, as shown in Figure 2. Therefore, to
meet the UFC for Fire Stations and the manufacturer’s guidelines for proper care, and
prevent increased risks to the health and safety of the firefighters, the PPE should be in a
negatively pressurized room with a dedicated exhaust system vented outside.




10
  Negative pressure refers to a ventilation system designed so air flows into an isolation room, but
contaminated air from the isolation room does not pass to other parts of the facility.


                                                     7

Washers and Dryers Should Be in a Protective Clothing
Laundry Room
The poor location of the fire station equipment used to wash and disinfect the firefighter
protective clothing and gear increased the firefighters’ risk of exposure to gaseous
emissions and hearing loss. The UFC for Fire Stations documents specific requirements
related to the equipment used to wash and disinfect firefighters’ protective clothing and
gear. The fire station renovation design did not meet these requirements. For example,
the UFC for Fire Stations requires a room that is accessible from the apparatus bay for
large commercial-grade washers and dryers to wash and disinfect firefighters’ PPE. The
UFC for Fire Stations also requires this room to have negative-pressure ventilation with
direct vents to the outside for each dryer. Before the renovation, the PPE washer was
located in a room adjacent to the apparatus bay, which did not have negative-pressure
ventilation, and the dryer was located in the apparatus bay. After the renovation project,
the washer remained in its original location and the dryer remained in the apparatus bay,
which was not compliant with the UFC for Fire
Stations. Additionally, fire station personnel            Fire station personnel often
passed by the dryer in the apparatus bay, and            wore  ear protection when the
were exposed to loud noise when the dryer was                dryer was operating to
in use. This created potential health risks for fire        minimize the potential for
station personnel and increased the potential              hearing loss; however, this
exposure to gaseous emissions. Fire station               affected their ability to hear
personnel often wore ear protection when the            each  other and the alert system
dryer was operating to minimize the potential for            during an emergency.
hearing loss; however, this affected their ability to hear each other and the alert system
during an emergency. Therefore, to mitigate the risk of hearing loss and ensure effective
communication during emergencies, the washers and dryers should be in a laundry room
that meets the requirements of the UFC for Fire Stations.

Lack of a Wash and Disinfection Room Created Potential
Health Risks
The fire station did not have an adequate wash and disinfection room where firefighters
could safely clean equipment without being exposed to potentially hazardous materials.
The UFC for Fire Stations requires fire stations to have a negatively pressurized wash and
disinfection room adjacent to the maintenance area with a dedicated wash-off area where
firefighters can wash, desalinate, and dry incoming equipment. In addition, the wash and
disinfection room must have at least a three-compartment stainless steel sink and a
stainless steel work table. Before the renovation, the fire station had a wash and
disinfection room located adjacent to the apparatus bay. After the renovation, the fire
station did not have a dedicated room to safely clean equipment. Instead, the fire station
had a wash and disinfection area with a single-compartment sink in the apparatus bay,
which was an open area. Fire station officials stated that they use this sink to wash and
disinfect equipment, as well as wash mops and brooms that they use to clean the fire
station. Figure 3 (on page 9) shows the wash and disinfection area in an open bay with
mops and brooms that firefighters used to clean the fire station.



                                            8

           Figure 3. Wash and Disinfection Area Located in an Open Bay




      Source: DoD OIG Audit Team.

The wash and disinfection room did not meet the requirements of the UFC for Fire
Stations and increased firefighters’ exposure to potentially harmful chemicals. The fire
station should have a wash and disinfection room that meets the requirements of the UFC
for Fire Stations to mitigate health and safety risks for firefighters.

Firefighter Alert System Was Outdated
The alert system at the fire station was outdated, and according to firefighters, the
outdated system contributed to delays in firefighter response to emergency calls. The
UFC for Fire Stations requires an alert system that provides simultaneous light and
audible control for the dorm rooms, corridors, and apparatus bay. In addition, the dorm
rooms must have a dedicated alert light fixture with a red-tinted bulb or lens that is
controllable from dispatch and tied into the alert system.

Firefighters stated that the lights did not always operate as needed, especially during late
hours of the night when firefighters responded to emergencies. They explained that
failure or lag of automatic lighting activation and automatic lighting that makes a dark
space immediately bright often resulted in loss of night vision. Firefighters stated that
inadequate lighting often causes them to stumble over gear and risk injuries while trying
to respond as quickly as possible. In addition, firefighters explained that the alert
sounded before lights turn on, which increased their stress before responding to
emergency calls. An updated alert system that includes adequate lights and audible alerts
would improve firefighter response to emergency calls.




                                             9

Firefighter Dorm Rooms Did Not Meet UFC Requirements
The firefighters’ dorm rooms did not meet UFC for Fire Stations specifications, which
require a comfortable and relaxing environment so firefighters can be well rested before
responding to emergencies. Firefighters use the dorm rooms for sleeping during 24-hour
shifts, and the UFC for Fire Stations has specific design requirements for these rooms.
For example, UFC for Fire Stations requires acoustical privacy between rooms and
individual thermostats to control the dorm room
temperatures. However, the renovation did not              Firefighters stated that during
improve the acoustics in the dorm rooms and               the winter, temperatures inside
firefighters stated that they could not properly rest         the dorm rooms reached
because of the noise from adjacent rooms. In                55 degrees Fahrenheit and,
addition, firefighters stated that they were unable to           during the summer,
rest properly because of unregulated temperatures              temperatures    reached
in the dorm rooms. For example, firefighters stated          112 degrees Fahrenheit...
that during the winter, temperatures inside the dorm
rooms reached 55 degrees Fahrenheit and, during the summer, temperatures reached
                                                            112 degrees Fahrenheit, as
      Figure 4. Temperature Inside a Dorm Room              shown in Figure 4. Before the
            Exceeded 100 Degrees Fahrenheit                  renovation, a radiator
                                                             regulated the temperature in
                                                             the fire station. After the
                                                             renovation, the dorm rooms
                                                             had a centralized thermostat
                                                             control, but problems with the
                                                             heating and air conditioning
                                                             made the rooms extremely
                                                             uncomfortable and almost
                                                             uninhabitable. When
                                                             firefighters respond to
                                                             emergency calls, their ability
                                                             to perform their work is
                                                             directly tied to how rested
                                                             they are. Living conditions in
                                                             the fire station did not provide
Source: Naval Station Great Lakes Fire Department.
                                                            a comfortable and relaxing
environment, which may affect the performance of the firefighters when responding to
emergencies. According to the Naval Station Great Lakes Fire Chief, NAVFAC Midwest
and the contractor repaired the condenser, condenser fan, and computer board for the
HVAC system. Additionally, NAVFAC Midwest officials and the contractor verified
temperature readings in September 2011. However, according to the Naval Station Great
Lakes Deputy Fire Chief, as of April 2, 2012, neither the contractor nor NAVFAC
Midwest corrected the HVAC issues. The Deputy Fire Chief stated that firefighters
continue to experience problems with the temperatures throughout the fire station.
On April 11, 2012, NAVFAC Midwest officials stated that they would work with the
Great Lakes Fire Department to address the temperature issues in the dorm rooms.


                                             10 

                                   FOR OFFICIAL USE ONLY



Additional Design Requirements Were Not Included in the
Renovation Project
In addition to the UFC for Fire Stations, NAVFAC Midwest officials did not include
other applicable UFCs and policies during project planning. When planning a project and
identifying all applicable design criteria, officials must consider the ratio of the PRV for
the building to the overall project cost. If the total cost of a major renovation project
exceeds 50 percent of the PRV, officials must plan the project in compliance with
additional design requirements. However, the design of the renovation project did not
meet the following required design criteria:

     •   (FOUO)


     •   NAVFAC Capital Improvements Engineering and Construction Bulletin, Issue
         Number 2008-01, “Energy Policy Act of 2005 Implementation and United States
         Green Building Council Leadership in Energy and Environmental Design
         (LEED),” December 13, 2007.

(FOUO) Based on the Form 1391 for the renovation project, the PRV was $9.75 million,
and the estimated cost of renovating the fire station was $7.78 million. Because the total
cost of the project was 79.8 percent of the PRV, during project planning, NAVFAC
Midwest officials should have also considered                                and the
requirements to achieve a LEED Silver certification. However, officials did not
consider these requirements when planning the renovation project. These requirements
were necessary to improve the efficiency of the building. For example, according to the
U.S. Green Building Council, LEED certified buildings cost less to operate and maintain,
are energy and water efficient, and are healthier and safer for occupants. Had NAVFAC
Midwest officials planned the renovation project to achieve a LEED Silver certification,
the fire station would have been more efficient and less costly to operate and maintain.

Firefighters Claimed the Renovation Made Fire Station
Conditions Worse
Firefighters responding to a voluntary DoD Office of Inspector General (OIG) survey
claimed that their safety and quality of life, as well as the functionality of the fire station,
decreased after the renovation project. We distributed a survey to 56 firefighters and the
21 firefighters that responded identified several concerns with the fire station renovation.
Refer to Appendix C for the survey questions and consolidated responses.



11
  NAVFAC Capital Improvements Engineering and Construction Bulletin, Issue Number 2008-01,
requires all major renovation project with an estimate project cost that exceeds 50 percent of the PRV to
meet the requirements of Public Law 109-58, “Energy Policy Act of 2005,” August 8, 2005. After
completing the renovation project, the fire station should have been, at a minimum, certified at a LEED
Silver level.
                                   FOR OFFICIAL USE ONLY
                                             11
The DoD OIG survey asked firefighters to rank their safety, ability to respond to
emergencies, the functionality of the fire station, and their quality of life after the
renovation. Firefighters responded on a scale of one to five, one indicating conditions
were worse after the renovation; three indicating the renovation had no impact; and five
indicating the renovation provided better conditions. We averaged the responses for each
of these questions, and the highest average was 1.67. This strongly indicates that the
firefighters felt each of these conditions worsened after the renovation. Firefighters
provided additional details about concerns or conditions in the fire station after the
renovation. The firefighters identified several concerns, including problems with the
HVAC system, fire station layout, dorm rooms, flooding, firefighter alert system,
lighting, and dryer. Figure 5 identifies the top seven concerns identified in the surveys
and the percentage of surveys that identified the issue.

                                                            Figure 5. Top Concerns That21 Firefighters Identified in the 

                                                                               DoD OIG Survey1


                                                                       HVAC                                                                     90%
    Firefighter Concerns Identified in Suveys




                                                           Fire Station Layout                                                       81%

                                                                Dorm Rooms                                                       76%

                                                                     Flooding2                                                  76%

                                                                 Alert System                                               71%

                                                                     Lighting                              52%
                                                  Air Compressor/Dryer/Self
                                                Contained Breathing Apparatus                          48%
                                                         Compressor
                                                                                 1   3   5     7        9       11       13        15      17         19   21
                                                                                             Number of Surveys Completed by Firefighters
1
  The percentages in this figure apply to the 21 firefighters who responded to our survey. This figure
reflects the number of surveys that identified each concern.
2
  Firefighters identified flooding as a top concern on the surveys. However, NAVFAC Midwest officials
explained that this problem was not specific to the fire station; rather it was an installation infrastructure
problem. See report page 22 for additional discussion and planned corrective actions.

The biggest concern, identified in almost all of the surveys we received, related to the
HVAC system. Firefighters explained that the HVAC system was poor because
of improper ventilation, improper climate control, or no air circulation. In addition, the
survey responses identified heat control problems in the dorm rooms. Firefighters stated
that rooms were so cold, some below 55 degrees Fahrenheit during the winter, that
people were displaced from their rooms.




                                                                                                12 

Project Planning Documentation Was Incomplete
and Inaccurate
PWD and IPT officials included inaccurate information and did not include all applicable
building requirements in project planning documentation. During project planning in
2005 and 2006, PWD officials did not adequately emphasize the mission impact if the
construction project for a new fire station was not funded. After several requests for
MILCON funding, PWD officials prepared documentation to request operations and
maintenance funds to renovate the existing fire station, but officials justified the project
with inaccurate information. Improved planning could have ensured that officials
considered all required UFCs and design criteria.

Mission Impact for New Construction Needed Additional Details
In 2005 and 2006, NAVFAC Midwest officials submitted Forms 1391 to construct a new
fire station. However, the Forms 1391 did not sufficiently detail the impact to fire station
mission and quality of life for fire station personnel if the Navy did not fund the project.
As stated previously, Navy Instruction 11010.20G requires the project justification to
describe clearly the impact to mission, health and safety, or quality of life, among other
things, if the project is not funded. The Commander, Naval Installations Command,
Navy Region Midwest, and NAVFAC Midwest officials stated that, when determining
whether to recommend a project for funding, they focused on the “Impact If Not
Provided” section of the Forms 1391. The Forms 1391 requesting MILCON funds stated
that the fire station would continue to decline without repairs, renovation, and
sustainment efforts, and that emergency response times “will not be improved” without
relocating the fire station and construction of a new fire station.

The Planner, PWD, stated that, he did not put much emphasis when writing the “Impact
If Not Provided” section because he believed if the project did not “float” or “fly,” then
they would probably not get MILCON funding. Additionally, officials from the office of
the Commander, Naval Installations Command, stated that fire stations do not compete
well with other mission requirements. Officials may have increased the likelihood of
receiving funds to build a new fire station by including more detailed and clear
information in the Form 1391 to adequately describe the impact to health, safety, and
quality of life and the impact to the mission. The Commander, Navy Region Midwest,
should issue guidance to ensure planners include sufficient detail to fully describe
mission impact and the impact to quality of life, safety, and health for future projects.




                                             13 

Project Justification for the Renovation Project Included
Inaccurate Information
The Form 1391 to renovate the existing fire station included inaccuracies that may have
misled officials in their decision to fund the renovation project. Navy
Instruction 11010.20G assigns to the Regional Commander responsibility for the validity
and accuracy of the Forms 1391 for special projects. PWD and IPT personnel were also
inherently responsible for accuracy because they were involved in preparing the
Form 1391 and planning the fire station renovation project. The Form 1391 had two
notable inaccuracies: one related to historic building designation and another that
showed that renovation was more economical than new construction.

Historic Building Designation Was Not Accurate
The Form 1391, dated December 2008, incorrectly stated that the fire station was a listed
historic facility. Navy Instruction 11010.20G requires commanding officers of all Navy
shore installations, during a project’s earliest planning stages, to determine whether the
project will have any effect on historic properties. NAVFAC Midwest officials
coordinated with the State Historic Preservation Office, and in April 2008, NAVFAC
Midwest received notification that the fire station was not an historic property. Other
sources, such as the Illinois Historic Preservation Agency, the National Register of
Historic Places Inventory for Naval Station Great Lakes, and the Internet Navy Facilities
Assets Data Store12 confirmed that the fire station was not an historic facility, and
according to the National Register of Historic Places, the fire station was not located
within an historic district.

The Planner, PWD, stated that he assumed all buildings greater than 50 years old were
historic. The Planner, PWD, prepared the Forms 1391 requesting MILCON funds in
2005 to 2006 but did not address the historical status of the fire station in the justification
section, although the building was more than 50 years old at that time. The Planner,
PWD, did not provide any reasons why he classified the fire station as historic, or why
NAVFAC Midwest officials did not update the December 2008 Form 1391 after
notification from the State Historic Preservation Office. The Planner, PWD, included the
inaccurate historic designation as a justification to fund the renovation project on the
approved Form 1391 that Congress received.




12
     The Internet Facilities Assets Data Store stores Department of the Navy property records.

                                                      14 

New Construction Would Have Been More Economical
Than Renovation
The economic analysis that supported the Form 1391 inaccurately stated that renovating
the existing fire station would be more economical than constructing a new fire station.
The Defense Hotline complaint alleged that replacing the fire station was more
economical than renovating it because a new facility would cost the same as or less than a
renovation. We substantiated this allegation. Navy Instruction 11010.20G requires all
repair projects estimated to cost more than $2.00 million to have a net present value
life-cycle economic analysis and refers to NAVFAC P-442, “Economic Analysis
Handbook,” October 1993,13 for policy and procedures on preparing economic analyses.

The Planner, PWD, prepared a life-cycle economic analysis to support the Form 1391,
estimating that the cost of new construction, over a 32-year project life, would be
approximately $28.23 million. We identified that the Planner, PWD, overstated estimates
for the initial construction costs and the annual costs for maintenance, repair, and utilities.
After adjusting for these errors, we calculated that the cost of new construction would be
approximately $18.57 million,14 which was $9.66 million less than the amount on the
Form 1391. The Planner, PWD, acknowledged that the economic analysis he prepared
was not accurate, but provided no reasons for the inaccuracies. Table 1 compares the
PWD and DoD OIG calculations of renovation and new construction costs.

          Table 1. PWD and DoD OIG Calculations of Costs for Renovation and 

                     New Construction (Shown in Net Present Value) 

                               PWD Calculated Cost      DoD OIG Calculated Cost
             Estimate
                                    (in millions)              (in millions)
     Renovation Cost                   $24.74                     $24.74
     New Construction Cost              28.23                      18.57
     Cost of New Construction
                                      ($3.49)                      $ 6.16
     Compared to Renovation
 Note: Because of rounding, columns may not calculate properly.

According to the estimates calculated by the Planner, PWD, a renovation project would
cost approximately $3.49 million less over a 32-year period than constructing a new fire
station. However, our analysis showed that the Navy could have saved approximately
$6.16 million over the 32-year life of the project by building a new fire station rather than
renovating the existing facility.


13
   NAVFAC Midwest officials stated they used NAVFAC P-442, “Economic Analysis Handbook,”
November 9, 2009, during the planning of the renovation project. However, this version of the
NAVFAC P-442 is unsigned. Additionally, this version was dated after the renovation project was
planned, and the contract was awarded. Therefore, we did not consider this version for the purposes of this
audit.
14
   While we acknowledge that NAVFAC Midwest used incorrect economic life, we also used a 30-year
economic life, so we could compare our calculations with those from NAVFAC Midwest.

                                                    15 

                             FOR OFFICIAL USE ONLY

Because of these inaccuracies, the Form 1391 supported the option to renovate the fire
station when new construction would have been the more economical option. Despite
these errors, the Navy submitted the Form 1391 for approval, which may have misled
officials in their decision to fund the renovation project.

Inconsistent Explanations for Excluding Applicable
Design Criteria
(FOUO) PWD and IPT officials provided inconsistent explanations to justify, without a
waiver or exception, exclusion of applicable design criteria during the planning and
design for the fire station renovation project. Specifically, the Planner, PWD, who
prepared the original Form 1391 for the renovation project, and the IPT Design Manager
provided several inconsistent explanations to justify exclusion of the UFC for Fire
Stations,                   and the requirements to achieve a LEED certification. The
Planner, PWD, gave the following explanations for excluding the UFC for Fire Stations.

   •   He was not aware of the UFC for Fire Stations; however, he included it in the
       2006 Form 1391 for a new fire station.

   •   Navy guidance “probably” only required the UFC for Fire Stations for new
       construction; however, the policy applies to renovations and new construction.

   •   He did not believe the Navy would approve a renovation project that included the
       UFC for Fire Stations because the Navy rejected a construction project to build a
       new fire station that would have complied with the UFC.

(FOUO) The IPT Design Manager provided the following explanations for excluding the
UFC for Fire Stations,           and the requirements to achieve a LEED
certification.

   •   Budgetary constraints prevented the IPT from complying with the UFC for Fire
       Stations. While the UFC for Fire Stations provides leniency for budgetary
       constraints, neither PWD nor IPT officials could provide detailed budgetary
       constraints that would prevent them from fully implementing the UFC for Fire
       Stations.

   •   (FOUO) The UFCs for Fire Stations and                     only applied to
       renovation projects if the estimated costs exceed 50 percent of the PRV. As we
       previously stated, the renovation cost exceeded 50 percent of the PRV for this
       project.

   •   The IPT design team decided the UFC for Fire Stations was not applicable
       because it was a renovation, not a new construction project. Contrary to this
       determination, the UFC for Fire Stations states that renovation projects should
       update existing facilities to meet the guidance and criteria outlined in the UFC.



                             FOR OFFICIAL USE ONLY
                                       16
                              FOR OFFICIAL USE ONLY 



   	 (FOUO) IPT did not have a cost engineer assigned to the renovation project;
      therefore, the IPT Design Manager stated that he did not know if the project cost
      was to exceed the 50 percent of the PRV, so he did not consider
                         the requirements for LEED certification.

The Deputy Public Works Officer, PWD, approved the Form 1391 for the renovation
project in January 2009. However, in November 2011, he stated that he was not aware of
the UFC for Fire Stations when he approved the Form 1391.

Review of Planning Documentation Was Ineffective
Officials who reviewed the Form 1391, the supporting documentation, and the RFP for
the renovation project should have detected mistakes, such as inaccurate cost figures in
the economic analysis. Navy Instruction 11010.20G requires the Regional Commander
to ensure the adequacy of the economic analysis before submitting projects for
higher-level review and approval. While Navy Instruction 11010.20G does not designate
review or approval responsibilities below the Regional Commander level, PWD and IPT
personnel have an inherent responsibility to complete accurate and valid project planning
                                          documentation. Officials reviewing the project
   Officials who reviewed planning        planning documentation should identify and
  documentation for the fire station      question any inconsistencies, and receive
       renovation project did not         clarification on any questions before approving
   identify these inaccuracies. As a      and forwarding the documentation. However,
      result, the data provided to        officials who reviewed planning documentation
      decisionmakers, including           for the fire station renovation project did not
      Congress, were inaccurate.          identify these inaccuracies. As a result, the data
provided to decisionmakers, including Congress, were inaccurate. We identified several
costs from the life-cycle cost table that did not match the sources and derivations section
of the life-cycle cost report in the economic analysis for the renovation project. For
example, the life-cycle cost table showed $7.409 million to renovate the existing fire
station, but the sources and derivations section of the life-cycle report listed the
renovation cost as $7.474 million. Officials who reviewed the Form 1391 and its
attachments should have easily detected and questioned these errors. Table 2 (on
page 18) provides additional examples of costs listed in the economic analysis that
conflicted.




                              FOR OFFICIAL USE ONLY
                                        17
              Table 2. Examples of Conflicting Costs in the Economic Analysis
                                                                             Sources and Derivations
          Expense Item                     Life-Cycle Cost Table             Section of the Life-Cycle
                                                                                   Cost Report
                              Option to Renovate the Fire Station
  Renovation Cost*                                    $ 7,409,000                            $ 7,474,000
  Annual Sustainment, Repair,                              50,000                                331,800
  and Maintenance (2009-2010)
  Annual Sustainment, Repair,            First Two Years: 618,000                                300,200
  and Maintenance (2028-2041)           Remaining Years: 839,000
                                Option to Construct a New Fire Station
  Initial Construction Cost, Not                        $ 12,454,000                        $ 13,204,000
  Including Demolition
                                            First Two Years: 220,000                                       0
  Annual Utilities Cost                    Remaining Years: 279,000
  Demolition                                                 400,000                             540,000
* Neither of the renovation costs in the economic analysis matches the Form 1391 renovation costs, which
was $7.78 million.

  In addition to the conflicting costs in the economic analysis, officials did not identify the
  inaccurate historical designation of the building when reviewing the Form 1391.
  According to Navy Instruction 11010.20G, the Deputy Public Works Officer, Naval
  Station Great Lakes was responsible for determining whether the PWD and IPT should
  have followed historic requirements for the fire station renovation. The Deputy Public
  Works Officer stated that his normal review process included ensuring documentation
  supported the statements on the Form 1391 statements. However, he signed the
  Form 1391 without providing comments, assuming the fire station was an historic
  property.

  Use of the Economic Analysis Checklist Will Improve
  Reviews of Planning Documentation
  Several PWD personnel involved in preparing and reviewing the Form 1391 and its
  attachments, like the economic analysis, stated that they were unaware of any standard
  procedures or checklists for reviewing the Form 1391 and its attachments.
  NAVFAC P-442, which applies to all Navy Commands and field offices that prepare
  economic analysis, includes an economic analysis checklist developed for analysts and
  reviewers to aid in determining whether economic analyses are correct, complete, and
  well-documented. Had officials used this checklist when reviewing the fire station
  planning documentation, they would have identified several errors. For example, one
  checklist item is to review the economic life of the options presented and determine
  whether they are reasonable and supported by guidance. For the fire station renovation
  project, the Planner, PWD, used a 32-year economic life for the economic analysis.
  However, NAVFAC P-442 establishes economic lives for DoD buildings, such as a fire
  station, and states that the economic life for these structures should not exceed 25 years.
  In addition, the checklist identifies that no renovation project should exceed 70 percent of



                                                     18
new construction costs. The costs on the economic analysis for renovating the fire station
were 87 percent of the costs of new construction. Therefore, PWD could have used the
checklist to aid in reviewing the Form 1391 and supporting documentation and
identifying inaccuracies.

Because of ineffective documentation reviews, NAVFAC Midwest officials inaccurately
presented the fire station renovation in the Form 1391 as the most cost-effective option to
meet fire station needs with the added benefit of preserving a listed historic facility. The
information provided to decisionmakers was misleading. As a result, the Navy will have
to invest additional funds for additional renovations to the fire station. To improve
reviews and ensure accuracy of the information in project planning documentation, the
Commander, Navy Region Midwest, should issue guidance that requires officials
reviewing project documentation to use the checklist included in NAVFAC P-442. Navy
Region Midwest and NAVFAC Midwest leadership should also review the actions of
personnel involved in preparing and reviewing the Forms 1391 and the RFP to determine
whether errors and omissions during project planning warrant administrative actions.

Navy Must Invest Additional Funds to Mitigate
Deficiencies That Remain After the Fire
Station Renovation
The Navy will need to invest additional funds to correct deficiencies that remain after the
fire station renovation. The Defense Hotline complaint alleged that the Navy will incur
additional costs for basic infrastructure items that were not included in the contract. We
substantiated this allegation. The Naval Station Great Lakes Fire Department submitted
maintenance requests for repairing and installing basic infrastructure items, such as light
switches, power outlets, doors, plumbing, and HVAC units after completion of the
renovation.

We evaluated the average number of monthly maintenance requests before and after the
renovation and determined that the average number of monthly maintenance requests
increased after the contractor completed the renovation. Post-renovation maintenance
logs identified repetitive problems occurring throughout the fire station, including
problems with pest control, electricity, plumbing, and HVAC, as well as water leaking
from the roof of the fire station. Figure 6 (on page 20) displays the average monthly
number of the maintenance requests before and after the renovation.




                                            19 

             Figure 6. Average Number of Monthly Maintenance Requests*
                                 for the Fire Station
 18
                              Before the Renovation                                After the Renovation
 16
                                                                                             16.8
 14
                                                                    14.9
 12

 10
               10.5
  8                                     9.3

  6

  4

  2

  0
        Oct 2006 - Sep 2007     Oct 2007 - Sep 2008          Oct 2008 - Sep 2009     Nov 2010 - Nov 2011
                                                                                   (One Year After Contract
                                                                                      Completion Date)
* We did not calculate the average monthly maintenance requests for the period during contract execution
(from September 2009 through November 2010). We also excluded from our analysis maintenance
requests for recurring work, such as monthly or annual inspections.

As shown in Figure 6, the average number of monthly maintenance requests recorded
after the renovation was higher than the average number of monthly maintenance
requests for any of the 3 years before the renovation. Additionally, the average number
of monthly maintenance requests for the 1 year after the renovation increased 13 percent,
when compared to the year before the contract start date. Consequently, even after
spending $5.48 million on the renovation project, the Navy had to invest additional funds
to address increased maintenance requests.

Decreased Functionality After the Renovation Delayed
Firefighter Response Times
The fire station renovation resulted in a less-functional fire station, which directly
affected the firefighters’ ability to respond to emergencies and provide timely support
during emergencies. According to a voluntary DoD OIG survey, firefighters identified
several functional challenges that the renovation project either caused or did not address.
For example, firefighters identified decreased functionality because of relocating the fire
station engine bays in relation to living quarters. Before the renovation, the fire engine
bay was located in close proximity to the living quarters. However, after the contract
award, Navy officials eliminated the requirement to lower the concrete slab in the engine
bay to allow fire engine truck access; therefore, the fire engine truck was relocated to
another bay that was further from the living quarters. As a result of decreased
functionality, firefighters may take longer to reach their apparatus and equipment during
an emergency, and longer distances to travel to their apparatus present more opportunities
for tripping or other accidents.



                                                      20 

 DoD Instruction 6055.06, “DoD Fire and Emergency Services,” December 21, 2006,
 requires a 7-minute aggregate response time15 for firefighters to arrive on the scene of an
 emergency. The Fire Chief stated that the Naval Station Great Lakes Fire Department
 uses a 1-minute time frame to leave the fire station. This means that from the time the
 alert sounds in the fire station to the time the firefighters leave the fire station should not
 exceed 1 minute. We analyzed firefighter response times for the periods before and after
 the renovation project and identified that the response times worsened after the
 renovation project. For example, from January 2009 through August 2009, firefighters’
 average response time for all types of incidents was between 1 minute 54 seconds and
 2 minutes 9 seconds. However, for the period January 2011 through August 2011, which
 was after the renovation, the average response time for all types of incidents increased to
 between 2 minutes 14 seconds and 2 minutes 31 seconds. Table 3 compares the average
 response times before and after the renovation.

            Table 3. Comparison of Average Response Times Before and After
                              the Fire Station Renovation
                                                                                              Approximate
                Average Response         Average Response
 Incident                                                         Difference After the          increase in
                  Time Range               Time Range
   Type                                                               Renovation              response time
                (Jan – Aug 2009)         (Jan – Aug 2011)
                                                                                               (percentage)
Fire           2 minutes 14 seconds      2 minutes 44 seconds
                        to                        to              30-36 seconds slower         22-24 percent
               2 minutes 33 seconds       3 minutes 9 seconds
Emergency      1 minute 41 seconds        2 minutes 4 seconds
Medical                 to                        to              16-23 seconds slower         14-23 percent
Services       1 minute 56 seconds       2 minutes 12 seconds
All            1 minute 54 seconds       2 minutes 14 seconds
Incidents               to                        to              20-22 seconds slower         17-18 percent
                2 minutes 9 seconds      2 minutes 31 seconds


 As shown in Table 3, firefighters took longer to leave the main fire station than they did
 before the renovation. Response times for fire incidents after the renovation project
 increased by approximately 22 to 24 percent, and response times for emergency medical
 service incidents increased by approximately 14 to 23 percent. The increased response
 times may affect their ability to provide timely support during emergencies.




 15
  The aggregate response time includes time for dispatch, turnout, and travel time. As previously stated,
 we used turnout time as response time for the purposes of this report.


                                                    21 

NAVFAC Midwest Initiated Some Actions to Correct
Outstanding Deficiencies in the Fire Station
In October 2011, we met with NAVFAC Midwest officials to brief them on outstanding
deficiencies they should have addressed with the renovation project. For example, we
identified that the HVAC system did not maintain consistent temperatures in the fire
station. The RFP required an HVAC system that provides quality indoor air, occupant
comfort, reliable operation, and ease of maintenance. The RFP also required controls to
serve the heating and cooling requirements of the offices, classrooms, sleeping rooms,
training rooms, day rooms, fitness rooms, and lounge areas of the facility. We also
identified problems with standing water on the roof, cracks in the exterior walls, and
damage around glass block units on the exterior walls. See Appendix B for the briefing
we provided to NAVFAC Midwest.

We noted to NAVFAC Midwest officials that the contractor’s warranty would expire on
November 18, 2011. In response to the outstanding deficiencies we identified, NAVFAC
Midwest officials inspected Building 106 to ensure that the contractor completed all
items identified in the contract to the standards stated in the contract. NAVFAC Midwest
officials engaged the contractor to address these deficiencies before the expiration of the
warranty period at no additional cost to the Government, and as of April 2012, were
working through those deficiencies. In addition, NAVFAC Midwest officials stated that
Naval Station Great Lakes experienced significant problems with the main drains on the
installation, which caused the fire station to flood. Officials stated that they scheduled a
project in summer 2012 to fix drainage problems at the installation. NAVFAC Midwest
officials have already taken actions to address outstanding deficiencies covered under the
warranty for the repair project, and with the assistance of the Regional Fire Chief, Navy
Region Midwest, they should identify actions to correct the remaining problems.

Conclusion
Navy officials did not properly plan the fire station renovation project and provided
misleading information to decision makers. Furthermore, the Navy did not make the
most economical decision, which resulted in a less-functional fire station at Naval Station
Great Lakes. These project planning deficiencies failed to correct fire station problems
and may have misled Congress in funding decisions. We substantiated the Defense
Hotline allegations related to the fire station renovation project. While the project to
renovate the fire station partially met the needs of the fire station, NAVFAC Midwest
will need to determine how to meet the required design criteria for the fire station and
address the firefighters’ needs.

Management Comments on the Finding and
Our Response
Summaries of management comments on the finding, finding discussion, and our
responses are in Appendix D.




                                            22
Recommendations, Management Comments and
Our Response
1.       We recommend that the Regional Fire Chief, Navy Region Midwest, and the
Public Works Officer, Public Works Department Great Lakes, Naval Facilities
Engineering Command, Midwest, identify existing deficiencies, such as those we
identified in this report related to the required unified facilities criteria and quality
of life, and implement appropriate actions to correct the deficiencies.

Department of the Navy Comments
The Commanding Officer, NAVFAC Midwest, in coordination Commander, Navy
Region Midwest, agreed with this recommendation. The Commanding Officer stated that
the Naval Station Great Lakes Public Works officials met with the Regional Fire Chief to
identify and discuss the outstanding building deficiencies. The Commanding Officer
stated that over half of the deficiencies identified have been closed, and the remaining
deficiencies are being addressed through ongoing or planned initiatives at the installation.

Although not required to comment, the Inspector General, Commander, Navy
Installations Command, agreed with the NAVFAC Midwest comments.

Our Response
The Navy comments were responsive, and the actions met the intent of the
recommendations. Therefore, no further comments are required.

2.   We recommend that for future projects, the Commander, Navy Region
Midwest:

       a.       Issue guidance requiring planners to provide sufficient detail in the
“Impact If Not Provided” section on the Forms 1391 to ensure that officials
reviewing and approving Forms 1391 fully understand the impact to the mission,
quality of life, safety and health that would occur if the project were not funded.

Department of the Navy Comments
The Commanding Officer, NAVFAC Midwest, in coordination with the Commander,
Navy Region Midwest, agreed with the recommendation. The Commanding Officer
stated that Navy Region Midwest issued guidance to PWD officials requires planners to
follow the UFC when preparing and reviewing Forms 1391. The Commanding Officer
stated that this guidance would be reinforced during quarterly meetings and NAVFAC




                                            23 

Midwest would reinforce the utilization of the business management system processes 16
during project planning.

Although not required to comment, the Inspector General, Commander, Navy
Installations Command, agreed with the NAVFAC Midwest comments.

Our Response
The Navy comments were responsive, and the actions met the intent of the
recommendations. Therefore, no further comments are required.

      b.      Issue guidance requiring Naval Facilities Engineering Command and
Naval Station Great Lakes Public Works Department officials to use the checklist
provided in Naval Facilities Engineering Command P-442, “Economic Analysis
Handbook,” October 1993, to ensure a thorough and accurate review of Forms 1391
and supporting documentation.

Department of the Navy Comments
The Commanding Officer, NAVFAC Midwest, in coordination with the Commander,
Navy Region Midwest, agreed with the recommendation. The Commanding Officer
stated that NAVFAC Midwest will reinforce the process outlined in the P-442 during the
next quarterly meeting, and will request economic analysis training as new software is
implemented. The Commanding Officer stated that Naval Facilities Engineering
Command, Midwest, has also implemented additional business management system
processes that were not in place during planning for the renovation project.

Although not required to comment, the Inspector General, Commander, Navy
Installations Command, agreed with the NAVFAC Midwest comments.

Our Response
The Navy comments were responsive, and the actions met the intent of the
recommendations. Therefore, no further comments are required.

3.     We recommend that Commander, Navy Region Midwest, and Commanding
Officer, Naval Facilities Engineering Command, Midwest, review the actions of
personnel involved in preparing and reviewing planning documentation, such as the
Forms 1391, supporting documentation, and the request for proposal, and based on
that review:

      a.     Determine which personnel failed to exercise due diligence when
planning a project to correct existing fire station deficiencies.

16
  The NAVFAC business management system provides a systematic method for the management of
business processes, common practices, and process quality improvements. The business management
system is a Web-based framework for NAVFAC employees to participate in the development and
improvement of common best business practices. The Commanding Officer stated that the business
management system processes were not in place during planning for the renovation project.


                                                24
Department of the Navy Comments
The Commanding Officer, NAVFAC Midwest, in coordination with the Commander,
Navy Region Midwest, agreed with the recommendation. The Commanding Officer
stated that NAVFAC Midwest reviewed the actions of the personnel involved in the
preparation of the Forms 1391, and have counseled the planner and Integrated Product
Team design manager.

Although not required to comment, the Inspector General, Commander, Navy
Installations Command, agreed with the NAVFAC Midwest comments.

Our Response
The Navy comments were responsive, and the actions met the intent of the
recommendations. Therefore, no further comments are required.

       b. Take the appropriate administrative actions.

Department of the Navy Comments
The Commanding Officer, NAVFAC Midwest, in coordination with the Commander,
Navy Region Midwest, agreed with the recommendation. The Commanding Officer
stated that NAVFAC Midwest incorporated numerous procedural safeguards, to include
relevant training for all current and future planners, and that no further administrative
actions were required.

Although not required to comment, the Inspector General, Commander, Navy
Installations Command, agreed with the NAVFAC Midwest comments.

Our Response
The Navy comments were responsive, and the actions met the intent of the
recommendations. Therefore, no further comments are required.




                                            25 

Appendix A. Scope and Methodology
We conducted this performance audit from July 2010 through June 2012 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Our audit scope included a review of the Navy Region Midwest Great Lakes
Project RM-005-07, “Repair Fire Station Building 106,” to renovate the main fire station
(Building 106) at Naval Station Great Lakes. We reviewed documentation including the
official contract file, Form 1391s, cost estimates, life-cycle economic analyses, and the
winning contractor’s technical proposal and cost data. We reviewed Federal, DoD, and
Navy policy and guidance related to construction and renovation projects, and we
compared this policy and guidance with our audit results. We reviewed Office of
Management and Budget guidance concerning collection of information in accordance
with the Paperwork Reduction Act of 1995. We interviewed personnel from the
following organizations.

      Commander, Naval Installations Command, Washington, D.C.
      Headquarters, Naval Facilities Engineering Command, Washington, D.C.
      Commander, Navy Region Midwest, Great Lakes, Illinois
      NAVFAC Midwest, Great Lakes, Illinois
      Naval Station Great Lakes PWD, including the Facilities Management Division
       and the Facilities, Engineering and Acquisition Division, Great Lakes, Illinois
      NAVFAC Midwest IPT, Great Lakes, Illinois
      Naval Station Great Lakes Fire Department, Great Lakes, Illinois
      Fort Belvoir Fire Station, Fort Belvoir, Virginia

We also conducted an anonymous, voluntary survey of the 56 firefighters at Naval
Station Great Lakes, all of whom were employees of the Navy.

Methodologies Used in DoD OIG Calculations
This section details the methodologies we used in our calculations for this report,
specifically those related to the economic analysis, life-cycle cost report and tables within
the economic analysis, evaluation of monthly maintenance requests, and average
emergency response times.

Validation of Assumptions Used in the Economic Analysis
As stated on page 15 of the report, we reviewed the economic analysis and identified
some errors in the calculations. To calculate an accurate life-cycle cost report, we
validated assumptions made by the Planner, PWD; adjusted erroneous data; and used
ECONPACK Version 4.0.6 to complete the calculation.



                                             26 

First, we reviewed the Navy Instruction 11010.20G and validated that the Planner, PWD,
used the correct cost factors and cost per square foot when preparing the life-cycle cost
report within the economic analysis for the fire station renovation project.
Navy Instruction 11010.20G requires the following percentages for each cost factor:

    •   Contingency Factor: 5 percent;
    •   Design-Build Factor: 4 percent; and
    •   Supervision, Inspection, and Overhead Factor: 8 percent.

We also reviewed the replacement cost per square foot, and determined that the
Planner, PWD, used the correct figure when preparing the life-cycle cost report within
the economic analysis. UFC 3-701-07, “DoD Facilities Pricing Guide,” July 2, 2007, 1
provides unit cost data and related adjustment factors for DoD facilities. Planners should
use the UFC when preparing MILCON project documentation and other project-level
estimates. According to UFC 3-701-07, the replacement cost per square foot for a fire
station is $183.64, which is consistent with the economic analysis prepared by the
Planner, PWD. We used these cost factors and cost per square foot to prepare the
adjusted economic analysis.

Adjustments to Initial Construction Costs Calculations
We determined that the Planner, PWD, overstated the initial construction costs for new
construction in the economic analysis for the fire station renovation project. Therefore,
we adjusted the initial construction costs to accurately reflect the costs of a new fire
station. We used the same assumptions as the Planner, PWD, with the exception of the
total square feet of the building and the area cost factor.

Square Feet Used for New Construction
The basic facilities requirement is the optimal space required to perform missions. The
UFC 2-000-05N, “Facility Planning for Navy and Marine Corps Shore Installations,”
undated, 2 (formerly known as NAVFAC Publication 80), includes criteria and
methodology for determining basic facilities requirements. UFC 2-000-05N,
Section 730, “Community Facilities-Personnel and Support Services,” January 31, 2005,
states that the total basic facilities requirement for a headquarters fire station with two
engine companies is 12,393 square feet. The Fire Chief, Naval Station Great Lakes
verified that the Great Lakes headquarters fire station (Building 106) has two companies.

The basic facilities requirement document for the Naval Station Great Lakes Fire
Department reflects this as well. The basic facilities requirement document for Naval
Station Great Lakes Fire Department also identified 9,240 square feet required for


1
  UFC 3-701-07 was updated September 15, 2009; however, the Planner, PWD, prepared the final
Form 1391 on December 21, 2008, and NAVFAC Midwest awarded the contract on September 30, 2009.
Therefore, the UFC 3-701-07 dated July 2007 was the current UFC during the project planning. We used
this version of the UFC for our analysis.
2
  This document was reformatted in accordance with the standards for a UFC on January 31, 2005, but has
been regularly updated since then to address emergent facility planning issues.


                                                  27
additional headquarters equipment, such as rescue boats and trailers, ambulance storage,
and hazardous materials storage. Therefore, the total requirement for the Naval Station
Great Lakes headquarters fire station is 21,813 square feet. However, the Planner, PWD,
used 35,738 square feet to calculate the construction costs for a new facility, which is the
size of the current fire station. Therefore, we adjusted the square feet for new
construction to 21,813 square feet, which is approximately 61 percent of the square feet
that the Planner, PWD, used to develop the life-cycle cost report within the economic
analysis.

Area Cost Factor for New Construction
UFC 3-701-07 states that the area cost factor for new construction in Great Lakes,
Illinois, should be 1.25. However, the Planner, PWD, used 1.27. Therefore, we adjusted
this factor in our calculations.

Additional Adjustments to DoD OIG Calculations
Aside from adjustments to the square footage and area cost factors, we used the estimates
completed by the Planner, PWD, for all other costs. However, because the Planner,
PWD, overstated initial construction costs, the estimates for Contingency; Design-Build;
and Supervision, Inspection, and Overhead, which are calculated as a percentage of the
total construction costs, decreased. Table A-1 shows the cost category, the estimate in
the 2008 economic analysis, and our adjusted costs.

    Table A-1. Auditor-Adjusted Estimated Costs for the MILCON Calculations
           Category                   2008 Economic Analysis         Auditor-Adjusted Cost
Construct Facility                               $ 8,334,000                    $ 5,007,174
Technical Operating Manual                            40,000                         40,000
Anti-Terrorism/Force                                 150,000                        150,000
Protection
Paving                                                     550,000                  550,000
LEED                                                       390,000                  390,000
Electrical Utilities                                       350,000                  350,000
Mechanical Utilities                                       350,000                  350,000
Water/Sewer                                                250,000                  250,000
Site Improvement                                           470,000                  470,000
Special Concrete Footer                                    230,000                  230,000
Demolish Building 106                                      540,000                  540,000
    Subtotal                                            11,654,000                8,327,174
Contingency                                                583,000                  416,358
Supervision, Inspection, and                               979,000                  699,482
Overhead
Design-Build                                            529,000                     377,720
        Total*                                     $ 13,744,000                 $ 9,820,736
*Columns may not total properly due to rounding.



                                                   28
As shown in Table A-1 on page 28, the Planner, PWD, overstated new construction costs
by approximately $3.92 million, which is approximately 28.5 percent of the estimated
costs from the 2008 economic analysis.

Adjustments to Life Cycle Cost Tables
We determined that the Planner, PWD, used the cumulative net present value from the
life-cycle cost tables to compare costs for renovation and new construction in the
Form 1391 for the renovation project. Therefore, we adjusted the initial construction
costs, maintenance and repair costs, and utility costs in the life-cycle cost tables to
account for the adjustments we made for the initial construction costs.

Economic Life
NAVFAC P-442 outlines the maximum economic lives for assets, such as buildings.
According to this guidance, the economic life should be the least of the following three
factors:

       	   the mission life or period over which a need for the asset is anticipated
            (DoD mission objectives are about 25 years);

       	   the physical life, or period over which the asset may be expected to last
            physically; or

       	   the technological life or period before obsolescence would dictate replacing
            the asset.

For permanent buildings, the NAVFAC P-442 states that the economic life should not
exceed 25 years. NAVFAC P-442 states that there may be lead time, or a significant
period of time between the initial investment expenditure and the beginning of the
economic life; however, economic life starts only when the asset begins to yield tangible
benefits to the Navy, for example, the date of beneficial occupancy.

Based on this guidance, we determined that the economic life for the fire station
renovation project should have been 25 years plus lead time; however, we used the same
project life as the Planner, PWD, which was a 30-year economic life and 2-year lead
time, to ensure a fair comparison of economic analyses.

Initial Construction Costs
We adjusted the initial construction cost instead of the total construction cost because the
total amount includes costs that may be used elsewhere in the life-cycle cost report.
For example, “Demolition” is in the Sources and Derivations section of the economic
analysis as part of the total cost of the fire station, but is broken out separately in the
life-cycle cost table. Therefore, we determined adjustment of the initial construction
costs would more accurately reflect costs for new construction. To adjust the life-cycle
cost tables, we reduced the initial construction cost of $12,454,000 by 28.5 percent to
$8,905,000.



                                             29 

Maintenance and Repair Costs
In the life-cycle cost tables for a new construction project, the Planner, PWD, listed
maintenance and repair costs of $500,000 per year for years 2 through 10. However, for
the renovation project, the Planner, PWD, listed maintenance and repair costs of $50,000
in year 2 and $412,000 per year in years 3 through 10. We determined that this was
illogical because a new facility would likely need less maintenance and repair than a
renovated facility. Therefore, for years 2 through 10, we used $412,000 per year as the
basis to adjust the cost for new construction. For year 2, we used the Planner’s
assumption that a newly constructed fire station would incur full maintenance and repair
costs. Therefore, for year 2, we adjusted the base cost to $412,000 and included the full
maintenance and repair costs.

After we adjusted the base costs for new construction, we multiplied the maintenance and
repair costs by 61 percent to account for the reduced size of a new facility, which would
be approximately 61 percent of the size of the current facility. Table A-2 summarizes the
changes we made to the maintenance and repair costs in years 2 through 10 for a new
construction project.

       Table A-2. DoD OIG Adjustments to Maintenance and Repair Costs From 

                              Years 2 Through 10 

                                  (thousands)
              2008 Economic Analysis                   Auditor Adjustment
                                                                   Adjusted New
 Year                                        Adjusted New       Construction Cost
          Renovation    New Construction
                                             Construction     (61 percent of adjusted
             Cost            Cost
                                              Base Cost          new construction
                                                                     base cost)
  1          50                 $0                 0                       0
   2          50               500                412                     251
   3         412               500                412                     251
   4         412               500                412                     251
   5         412               500                412                     251
   6         412               500                412                     251
   7         412               500                412                     251
   8         412               500                412                     251
   9         412               500                412                     251
  10         412               500                412                     251

For years 11 through 32, we used the same base cost as the Planner, PWD, decreasing it
by 61 percent because the Planner, PWD, used the same maintenance and repair costs for
new construction and renovation in these years.




                                           30
Utility Costs
As stated on page 26, we determined that a new fire station would be approximately
61 percent the size of the existing fire station. Therefore, we reduced utility costs
proportionately by multiplying them by 61 percent.

ECONPACK
We used ECONPACK Version 4.0.6 to generate our adjusted economic analysis. We
determined that the Planner, PWD, used version 3.2.1 of ECONPACK, which was
different from version 4.0.6 available to us at the time of our analysis. We tested
version 4.0.6 to determine whether there were changes that would affect the outcome of
our economic analysis. See the computer-processed data section of this appendix (on
page 32) for our methodology and conclusions.

Calculation of Average Monthly Maintenance Requests
We identified four periods for which we would evaluate the average number of monthly
maintenance requests. We excluded maintenance requests submitted during the
renovation period, which was from September 30, 2009, through November 19, 2010.
Our review periods were from:

   •   October 1, 2006, through September 30, 2007 (pre-renovation);
   •   October 1, 2007, through September 30, 2008 (pre-renovation);
   •   October 1, 2008, through September 30, 2009 (pre-renovation); and
   •   November 20, 2010 through November 19, 2011 (post-renovation).

We sorted the data provided by NAVFAC Midwest by the completion date. Then, we
identified all records related to routine or expected services requests, such as monthly
inspections, and excluded those from our review. We counted the total number of
remaining maintenance request logs for each period and divided that number by 12 to
determine the average number of monthly maintenance logs.

Calculation of Average Emergency Response Times
We obtained response time data from the Enterprise Safety Applications Management
System database, which is a safety management system composed of a suite web-enabled
module to manage data requirements to include response times to emergencies. From the
data in this database, the Navy generates a report to populate the National Fire Incident
Response System, which is a Department of Homeland Security system that all
U.S. Navy fire departments are required to use to report their emergency response
incidents. We obtained data in Excel format for the Naval Station Great Lakes Fire
Department for periods before and after the renovation. Specifically, we obtained data
from January 1, 2009, through August 31, 2009 (before the renovation) and
January 1, 2011, through August 31, 2011 (after the renovation). The data identified the




                                            31
dispatch, departure, and arrival date3 for each incident. Unless otherwise noted, we used
Excel formulas for all calculations.

Identifying Data Sets
The Naval Station Great Lakes Fire Department includes a headquarters fire station
(Building 106) and a satellite fire station. We excluded response times for those
incidents at stations other than Building 106. We then identified and compared response
time data for the same months before and after the renovation. We further separated the
data by fire incidents and emergency medical service incidents by identifying those
incidents for which only the emergency medical service apparatus was dispatched. We
considered all other incidents to be fire incidents. Therefore, for each period (before and
after the renovation), we had three sets of data: fire incidents, emergency medical service
incidents, and all incidents (fire and emergency medical service). For all sets of data, we
calculated the response time for each incident by subtracting the dispatch time from the
departure time.

Calculation of Average Response Times
We then calculated the average response times using two methods: median and mean.
The median is the middle value in a list of numbers. The mean is the summed value of a
series of numbers divided by the amount of numbers in the series. For example, if a
series of numbers is 2, 3, 5, 10, and 20, the mean of these numbers is the sum of the
numbers, which is 40, divided by the amount of numbers in the series, which is 5; the
result is 8. Both are valid methods for calculating the average of a group of numbers.
For this set of response time data, using both median and mean averages also shows users
that, regardless of how average is calculated, the response times are worse than they were
before the renovation project started.

Use of Computer-Processed Data
We obtained and relied on computer-processed data from NAVFAC Midwest and Naval
Station Great Lakes to complete the audit. We obtained information from Navy
databases and systems, as well as a software application. The details of the data, systems,
and testing are discussed below.

We used ECONPACK software to generate an adjusted economic analysis for the fire
station renovation project. Because we used ECONPACK Version 4.0.6 and the Planner,
PWD used Version 3.2.1, we tested the software to determine whether we could compare
our economic analysis to the one generated by the Planner, PWD. To test the software,
we input the same information as that on the economic analysis provided by NAVFAC




3
  The headings for the data indicated dispatch, departure, and arrival date. The data in these columns
included the date and time. We will refer to the data using “time” instead of “date.”


                                                    32 

Midwest, and verified that the output from ECONPACK Version 4.0.6 was identical to
that provided by NAVFAC Midwest using Version 3.2.1. We determined that the data
generated from ECONPACK Version 4.0.6 were sufficiently reliable for purposes of this
audit.

We also obtained data from the Internet Navy Facility Assets Data Store to determine
whether the fire station was historic. Although we could not independently verify the
reliability of this information, we compared it to information from historic preservation
Web sites, including the Illinois Historic Preservation Agency and the National Register
of Historic Places Inventory for Naval Station Great Lakes. From these efforts, we
determined that the information we obtained is sufficiently reliable for this audit.

We obtained response time data from the Deputy Fire Chief, Naval Station Great Lakes,
to determine whether the response times improved or got worse after the renovation. We
assessed the reliability of this data by comparing it to data directly queried by the audit
team from the Enterprise Safety Applications Management System and interviewing fire
station officials familiar with the data input processes. We concluded that the data were
sufficiently reliable for the purposes of this audit.

We obtained data from the Single Platform Maximo Enterprise (Maximo) to identify the
frequency of maintenance requests before and after the fire station renovation. The data
were not material to our audit findings and conclusions. Therefore, we did not assess the
reliability of this data; however, we concluded the data were sufficiently reliable for the
purposes of this audit given the Navy’s use of the Maximo system.

Prior Coverage
No prior coverage has been conducted on the subject in the last 5 years.

Use of Technical Assistance
The DoD OIG Technical Analysis and Coordination Cell assisted with the audit. These
personnel attended site visits to Naval Station Great Lakes and informally provided
subject matter expertise to the team on engineering issues.

The DoD OIG Quantitative Methods Division also assisted with the audit. These
personnel analyzed data from the audit client related to the analysis of maintenance
requests before and after the renovation. The DoD OIG Quantitative Methods Division
analyzed maintenance request data provided by the client using a Chi-Square test, which
is a statistical test commonly used to compare observed data with data we would expect
to obtain according to a specific hypothesis. This test also takes into consideration the
amount of deviation between the observed data and the expected data.




                                            33
Appendix B. Briefing to NAVFAC Midwest on
Outstanding Building Deficiencies
The following charts are those developed by the DoD OIG audit team and briefed to
NAVFAC Midwest officials.




                                          34 

35 

36 

37 

Appendix C. Consolidated Responses to the
DoD OIG Survey of Naval Station
Great Lakes Firefighters
We distributed a survey to 56 firefighters at Naval Station Great Lakes to identify their
concerns with the fire station after the renovation. The following figure is a copy of the
DoD OIG survey. We also consolidated the responses to these survey questions and
presented them in this appendix.

     Figure D-1. DoD OIG Survey of the Naval Station Great Lakes Firefighters




                                            38 

Impact of Renovation on Firefighters’ Safety
Question one of the DoD OIG survey was related to the impact of the renovation on
firefighter safety. We asked firefighters to rate their responses on a scale of one to five,
one indicating “worse,” three indicating “no impact,” and five indicating “better.” The
firefighters’ average response to this question was 1.67.

We also asked firefighters to provide specific examples of their concerns related to their
safety after the renovation. Table D-1 shows the concerns firefighters identified in
response to this question.

     Table D-1. Concerns Identified in Response to Question 1 and the Frequency
                                                                       Frequency (out of
                        Firefighter Concern
                                                                          21 surveys)
Flooding                                                                       10
Alert System                                                                    9
HVAC                                                                            8
Air Compressor/Dryer/Self Contained Breathing
                                                                                6
Apparatus Compressor
Fire Pole                                                                       5
Layout of the Fire Station                                                      5
Lighting                                                                        5
Vehicle Ramps                                                                   4
Building Structure                                                              3
Dorm Rooms                                                                      3
Firefighter Opinion                                                             3
No Answer                                                                       3
Pest Control                                                                    3
Floor Coating                                                                   2
Operational Building Issues                                                     2
Other                                                                           2
PPE                                                                             2
Wash Room                                                                       2
Floor Drains                                                                    1
Garage Doors                                                                    1
Hoses                                                                           1
Location of the Fire Station                                                    1
Plumbing                                                                        1
Water Mains                                                                     1




                                              39 

Impact of Renovation on Firefighters’ Ability to Respond
to Emergencies
Question two of the DoD OIG survey was related to the impact of the renovation on the
firefighters’ ability to respond to emergencies. We asked firefighters to rate their
responses on a scale of one to five, one indicating “worse,” three indicating “no impact,”
and five indicating “better.” The firefighters’ average response to this question was 1.62.

We also asked firefighters to provide specific examples of their concerns related to their
ability to respond to emergencies after the renovation. Table D-2 shows the concerns
firefighters identified in response to this question.

     Table D-2. Concerns Identified in Response to Question 2 and the Frequency
                                                                     Frequency (out
                        Firefighter Concern
                                                                      of 21 surveys)
Layout of the Fire Station                                                   9
Alert System                                                                 8
Lighting                                                                    6
Garage Doors                                                                4
Dorm Rooms                                                                  3
No Answer                                                                   3
Captain’s Berthing                                                          2
Fire Pole                                                                   2
Flooding                                                                    2
HVAC                                                                        2
Air Compressor/Dryer/Self Contained Breathing Apparatus
                                                                            1
Compressor
Building Structure                                                          1
Location of the Fire Station                                                1
Vehicle Ramps                                                               1
Wash Room                                                                   1




                                              40 

Impact of Renovation on the Functionality of the
Fire Station
Question three of the DoD OIG survey was related to the impact of the renovation on
functionality of the fire station. We asked firefighters to rate their responses on a scale of
one to five, one indicating “worse,” three indicating “no impact,” and five indicating
“better.” The firefighters’ average response to this question was 1.57.

We also asked firefighters to provide specific examples of their concerns related to the
functionality of the fire station after the renovation. Table D-3 shows the concerns
firefighters identified in response to this question.

     Table D-3. Concerns Identified in Response to Question 3 and the Frequency
                                                                     Frequency (out
                      Firefighter Concern
                                                                      of 21 surveys)
Layout of the Fire Station                                                   9
Alert System                                                                 6
Floor Drains                                                                 5
Hoses                                                                        5
Kitchens                                                                     4
HVAC                                                                         4
Water Mains                                                                  4
Captain’s Berthing                                                           3
Dorm Rooms                                                                   3
Firefighter Opinion                                                          3
Flooding                                                                     3
Information Technology                                                       3
Lighting                                                                     3
No Answer                                                                    3
Operational Building Issues                                                  3
Air Compressor/Dryer/Self Contained Breathing
                                                                            2
Apparatus Compressor
Plumbing                                                                    2
Fire Pole                                                                   1
Floor Coating                                                               1
Garage Doors                                                                1
Location of the Fire Station                                                1
PPE                                                                         1
Vehicle Ramps                                                               1
Wash Room                                                                   1




                                             41 

Impact of the Renovation on Firefighters’ Quality of Life
Question four of the DoD OIG survey was related to the impact of the renovation on
firefighters’ quality of life. We asked firefighters to rate their responses on a scale of one
to five, one indicating “worse,” three indicating “no impact,” and five indicating “better.”
The firefighters’ average response to this question was 1.57.

We also asked firefighters to provide specific examples of their concerns related to their
quality of life after the renovation. Table D-4 shows the concerns firefighters identified
in response to this question.

     Table D-4. Concerns Identified in Response to Question 4 and the Frequency
                                                                           Frequency (out of
                         Firefighter Concern
                                                                              21 surveys)
HVAC                                                                              15
Dorm Rooms                                                                        12
Firefighter Opinion                                                                6
Flooding                                                                           6
Layout of the Fire Station                                                         6
Kitchens                                                                           5
Lighting                                                                           5
Air Compressor/Dryer/Self Contained Breathing Apparatus Compressor                 3
Alert System                                                                       3
Operational Building Issues                                                        3
Plumbing                                                                           3
Captain's Berthing                                                                 2
Floor Drains                                                                       2
Building Structure                                                                 1
Information Technology                                                             1
No Answer                                                                          1
Pest Control                                                                       1




                                             42 

Changes to the Fire Station Needed to Improve
Functionality and Firefighters’ Quality of Life
Question five of the DoD OIG survey was related to outstanding changes to the fire
station that were needed to improve the functionality of the fire station and the
firefighters’ quality of life after the renovation. Table D-5 shows the concerns
firefighters identified in response to this question.

           Table D-5. Changes Need to Improve Fire Station Functionality
                         and Firefighters’ Quality of Life
                                                           Frequency (out of 21
                     Firefighter Concern
                                                                surveys)
     HVAC                                                          15
     Flooding                                                      8
     Alert System                                                  6
     Building Structure                                            6
     Firefighter Opinion                                             6
     Floor Drains                                                    6
     Lighting                                                        5
     Operational Building Issues                                     5
     Plumbing                                                        5
     Air Compressor/Dryer/Self Contained Breathing
                                                                     4
     Apparatus Compressor
     Layout of the Fire Station                                      4
     Captain's Berthing                                              3
     Dorm Rooms                                                      3
     PPE                                                             3
     Floor Coating                                                   2
     Information Technology                                          2
     Kitchens                                                        2
     Garage Doors                                                    2
     Wash Room                                                       2
     Water Mains                                                     2
     Fire Pole                                                       1
     No Answer                                                       1
     Other                                                           1
     Vehicle Ramps                                                   1




                                           43 

Impact of a New Fire Station on Firefighters’ Ability to
Perform the Mission
Question six of the DoD OIG survey asked firefighters, given the state of the current fire
station, what impact a new fire station would have on their ability to perform their
mission. We determined that this question was misleading to firefighters because it was
not objective. Therefore, we excluded the results of this question from our analysis.

Additional Concerns Related to the Fire Station
Question seven of the DoD OIG survey asked firefighters to list any additional concerns
they had related to the fire station. Table D-6 shows the concerns firefighters identified
in response to this question.

Table D-6. Additional Concerns Firefighters Identified in OIG DoD Survey
                                                                              Frequency
                          Firefighter Concern                                 (out of 21
                                                                               surveys)
Firefighter Opinion                                                               10
HVAC                                                                              4
No Answer                                                                         4
Building Structure                                                                3
Dorm Rooms                                                                        3
Flooding                                                                          3
Kitchens                                                                          3
Layout of the Fire Station                                                        3
Lighting                                                                          3
Vehicle Ramps                                                                     3
Air Compressor/Dryer/Self Contained Breathing Apparatus Compressor                2
Alert System                                                                      2
Captain’s Berthing                                                                2
Fire Pole                                                                         2
Floor Coating                                                                     2
Floor Drains                                                                      2
Hoses                                                                             2
Information Technology                                                            2
Operational Building Issues                                                       2
Plumbing                                                                          2
PPE                                                                               2
Wash Room                                                                         2
Water Mains                                                                       2
Pest Control                                                                      1



                                            44 

Appendix D. Management Comments on the
Finding and Our Responses
The Commanding Officer, NAVFAC Midwest, in coordination with Commander, Navy
Region Midwest, provided additional comments on the finding and report discussion.
Although not required to comment, the Inspector General, Commander, Navy Installation
Command also provided comments on the report. The complete text of these comments
can be found in the Management Comments section of this report.

Department of the Navy Comments on the Renovation Project
Not Meeting the Fire Station Needs
The Commanding Officer, NAVFAC Midwest, in coordination with Commander, Navy
Region Midwest, disagreed that the fire station did not meet the needs of the fire
department. The Commanding Officer stated the renovation project made many
improvements to the fire station and that after the renovation, the fire station operated
successfully and with greater capacity. The Commanding Officer also stated that
officials used the UFC for Fire Stations to define customer requirements, but that budget
constraints required officials to use judgment to address the most critical deficiencies for
the fire station.

Our Response
We agree that the renovation project resulted in some improvements to the fire station;
however, as we identified in the report, the renovation project did not mitigate all
potential health and safety risks to fire station personnel. Additionally, response times
increased after the renovation, which indicated that the functionality of the fire station
and the ability of the firefighters to meet their mission, was impacted. In addition, we
acknowledge that the UFC for Fire Stations provides leniency for budgetary constraints;
however, despite our requests, officials could not produce documentation to identify
budgetary constraints or demonstrate how the officials prioritized the fire station
deficiencies. We also disagree that planners used the UFC for Fire Stations to plan the
renovation project. During interviews, the Planner, PWD, and the IPT Design Manager
stated that they did not use the UFC for Fire Stations during project planning for various
reasons.

Department of the Navy Comments on Proper Planning to
Address Deficiencies with Basic Infrastructure Items
The Commanding Officer, NAVFAC Midwest, in coordination with Commander, Navy
Region Midwest, stated that basic infrastructure items, such as the HVAC, roof, and
plumbing were addressed in the planning and renovation, but outstanding deficiencies in
the contractor’s workmanship remained and were being corrected.




                                             45
Our Response
After further review, we agree that NAVFAC Midwest officials planned the renovation
project to address the HVAC, roof, and plumbing. We did not review the contract
administration or quality assurance procedures for this contract; however, we
acknowledge that NAVFAC Midwest officials are working with the contractor to resolve
outstanding deficiencies with the HVAC and roof, and that officials have taken steps to
address the plumbing and drainage problems at the installation. Therefore, we deleted
the statement that proper planning would have addressed these deficiencies from the
finding on page 5 of the report.

Department of the Navy Comments on Potential Health and
Safety Risks and Improvements to Fire Station Functionality
The Commanding Officer, NAVFAC Midwest, in coordination with Commander, Navy
Region Midwest, stated that the renovation project mitigated many of the risks and
improved some fire station functionality. The Commanding Officer stated building
improvements included electrical, mechanical, and telephone system repairs; new interior
finishes; repair and improvements to space configuration; and a whole building roof
repair. The Commanding Officer stated the project also included new toilets and shower
room, exercise room, and kitchen repairs. The Commanding Officer also stated that,
although sunlight is filtered through a skylight, the PPE storage lockers could be moved
to their original location. Finally, the Commanding Officer stated that they plan to
relocate the washers and dryers away from normal foot traffic.

Our Response
We agree that the renovation project resulted in some improvements to the functionality
of the fire station, such as new shower and exercise rooms. Therefore, we revised
pages 6 and 7 of the report to address only the outstanding health and safety risks.
However, the PPE storage lockers continue to be exposed to sunlight and the washer and
dryers will continue to pose noise hazards to firefighters until the equipment is relocated.
Additionally, the fire station still lacks an adequate wash and disinfection room, which
increases the firefighters’ exposure to potentially harmful chemicals.

Department of the Navy Comments on the Fire Alert System
The Commanding Officer, NAVFAC Midwest, in coordination with Commander, Navy
Region Midwest, stated that replacement of the firefighter alert system was not part of the
renovation contract because the alert system was considered personal or collateral
equipment. The Commanding Officer stated only real property equipment could be
replaced under the renovation contract. The Commanding Officer stated
NAVFAC Midwest informed fire station officials that the fire alert system was excluded
from the contract. The Commanding Officer also stated fire station officials would have
to submit a request for a new alert system separately.




                                             46
Our Response
During the audit, we identified problems with the outdated fire alert system. We
acknowledge that the alert system was not included in the renovation project, and
modified the paragraphs on page 9 of the report to clarify that point.

However, the UFC for Fire Stations requires an alert system with simultaneous light and
audible controls, and we identified potential safety issues with the existing alert system
lighting. In response to the DoD OIG survey, the firefighters identified concerns with the
alert system. Therefore, although it was not part of the renovation project, we highlighted
the alert system as a building deficiency that posed a potential health and safety risk to
firefighters.

Department of the Navy Comments on the Firefighter
Dorm Rooms
The Commanding Officer, NAVFAC Midwest, in coordination with Commander, Navy
Region Midwest, stated the results of temperature audits between March and
June 2011 were generally within the UFC requirements. Additionally, the Commanding
Officer stated that the DoD OIG report stated that the walls do not provide the sound
transmission class rating between 50 and 55. The Commander also stated insulation was
installed in each dorm room wall for sound barrier and heat loss. Finally, the
Commanding Officer stated they were unable to identify the source of the photo on page
10 of the report showing 112-degree temperatures in the fire station.

Our Response
Our report did not provide data related to the sound transmission class rating in the dorm
rooms. Our report stated firefighters responding to the DoD OIG voluntary survey
identified they could not rest properly due to noise from adjacent rooms. During the
audit, we met with the NAVFAC Midwest Industrial Hygienist and requested that he
provide the results of his annual building survey of the fire station, to include the noise
level readings; however, the Industrial Hygienist did not provide his final report, and
provided only an estimate of the noise levels in the dorm rooms. We concluded that
estimates were not sufficiently reliable evidence to use in our report.

We were unable to validate the temperature audits conducted between March 2011 and
June 2011. However, the Deputy Fire Chief stated during our audit that, in
October 2011, the Activity Public Works Officer determined that the heating system for
the fire station was too small, and, therefore, could not properly heat the building. Also,
as previously stated, we acknowledge that NAVFAC Midwest officials are working with
the contractor to resolve any outstanding deficiencies with the HVAC system.

Finally, the photo presented on page 10 of our report states that the source of the photo
was the Naval Station Great Lakes Fire Department. We obtained this photo from fire
station personnel on September 28, 2011.




                                            47
Department of the Navy Comments on the DoD OIG
Voluntary Survey
The Commanding Officer, NAVFAC Midwest, in coordination with the Commander,
Navy Region Midwest, stated he disagreed with the interpretation of the DoD OIG survey
and opinion, stating that the results were unsupported. The Commanding Officer pointed
out improvements to the electrical, mechanical, and telephone systems, as well as to the
roof, interior finishes, and space configuration for EMTs. The Commanding Officer also
stated NAVFAC Midwest consulted fire station officials during the project design to
validate project requirements and mission requirements, and that fire station officials
requested changes to building layout, such as relocation of vehicles. The Commanding
Officer also emphasized that NAVFAC is responsible for ensure the project scope
includes appropriate design criteria, including UFCs, and complies with life and safety
codes. NAVFAC is also responsible for ensuring accurate cost estimates and economic
analyses, and that the project provided is within available funding.

Our Response
We administered a voluntary survey to all firefighters in the Naval Station Great Lakes
Fire Department. We consolidated their responses, summarized the data, and presented it
in the report. However, most of the concerns firefighters identified in the survey coincide
with our observations during our site visits. The Commanding Officer stated that
NAVFAC Midwest consulted fire station officials during project planning and that fire
station officials requested changes to building layout, such as relocation of vehicles.
However, because there is little or no documentation from these events, we could not
validate these statements.

We understand NAVFAC responsibilities throughout the project planning process. As
this report outlines, we identified risks with the development of project requirements and
economic analysis. However, management comments to the recommendations provide
corrective actions to mitigate the risks we identified in the report.

Department of the Navy Comments on the Most Economical
Option for Project Completion
The Commanding Officer, NAVFAC Midwest, in coordination with the Commander,
Navy Region Midwest, agreed that MILCON was the most economical option to achieve
the project objectives, but stated the most cost-effective option does not dictate the final
solution, and that a less-economical solution may be implemented. The Commanding
Officer also stated the economic analysis for a MILCON project showed that MILCON
was more economical by only a marginal amount. The Commanding Officer also noted
NAVFAC Midwest made several attempts to obtain MILCON funding, but they were
unsuccessful because of MILCON program constraints and a large backlog in MILCON
projects throughout the Midwest region. Therefore, the Commanding Officer stated they
decided to renovate the fire station because waiting for MILCON funding would have
resulted in a substandard fire station with deteriorated building systems for an unknown
period of time.




                                             48
Our Response
We understand that the most economical option does not dictate the final solution for
project completion. However, as stated in our report, the economic analysis for the
Form 1391 for the renovation project incorrectly showed that renovation was the most
economical option to achieve the project objectives. Additionally, our report highlights
that additional details clearly stating the impact to the mission, health and safety, and
quality of life may have increased the likelihood of funding for a new fire station.

Department of the Navy Comments on Explanations for
Excluding Design Criteria
The Commanding Officer, NAVFAC Midwest, in coordination with Commander, Navy
Region Midwest, disagreed that the explanations for excluding design criteria are
reflective of the facts discussed during the audit site visits. The Commanding Officer
stated many details of the interviews were omitted or incorrectly stated. The
Commanding Officer also stated the UFC provides leniency for budgetary constraints,
and that NAVFAC Midwest used the UFC to define customer requirements and plan and
design the project.

Our Response
The facts presented on pages 16 and 17 of this report reflect the statements provided to us
during interviews with NAVFAC Midwest officials. We agree the UFC for Fire Stations
provides leniency for budgetary constraints during project execution; however, planners
must still use the UFC for Fire Stations when planning projects to identify all
requirements. As previously stated, the Planner, PWD, and the IPT Design Manager
stated during interviews that they did not use the UFC for Fire Stations when planning
the project.

Department of the Navy Comments on the Average Monthly
Maintenance Calls Before and After the Renovation
The Commanding Officer, NAVFAC Midwest, in coordination with Commander, Navy
Region Midwest, disagreed with the conclusions regarding the average monthly number
of maintenance calls after the renovation, stating the data was skewed because of the
number of final adjustments to building systems during the contractor’s warranty period.
The Commanding Officer stated that between December 2011 and May 2012, after the
warranty period, the average number of monthly service calls was between 13 and 15 per
month.

Our Response
As stated in our report, we reviewed service calls from October 2006 through
November 2011, excluding the renovation period. Therefore, we could not validate the
information on the number of average monthly service calls from December 2011
through May 2012. Additionally, we could not determine whether the service calls from
November 2010 through November 2011 (after the renovation) were related to contract
warranty issues or not.




                                            49
The DoD OIG Quantitative Methods Division analyzed the data within our audit scope,
and measured the likelihood that the periods before and after the renovation have a
similar non-routine maintenance request rate. Their results indicated that the probability
of monthly maintenance requests after the renovation being similar to the requests before
the renovation was approximately 1.2 percent, which means that it is very unlikely. For
additional explanation on this calculation, please see Appendix A.

Commander, Navy Installations Command Comments
Although not required to comment, the Inspector General, Commander, Navy
Installations Command, agreed with the NAVFAC Midwest comments. The Inspector
General stated the report highlights deficiencies in the project planning, design, and
contract award processes, and these deficiencies were partially a result of Navy funding
limitations and resource allocations.

The Inspector General also stated that the MILCON project prioritization process made it
highly unlikely that a MILCON replacement project, such as replacement of the fire
station, would have been funded. The renovation project provided relief to the
firefighters from very poor facility conditions. The Inspector General stated that the
Commander, Navy Installations Command, and NAVFAC Midwest made the best
possible attempt to execute a critical project for Naval Station Great Lakes, and although
there were errors in the project development and design, NAVFAC Midwest has
improved processes to prevent these problems from reoccurring.

Our Response
We agree that there were deficiencies with the project planning; however, we cannot
conclude on problems related to contract award, as this was outside the scope of our
audit. We also cannot conclude as to the reason for the deficiencies, but we acknowledge
that, in response to this report, NAVFAC Midwest provided corrective actions that will
mitigate the risk of these problems.

Finally, we cannot comment on the likelihood of obtaining MILCON funding for
replacing the fire station. However, our report highlights the Forms 1391 for
construction of a new fire station needed additional details to emphasize the impact to fire
station mission and quality of life for fire station personnel if the Navy did not fund the
project. The report also highlights that the Planner, PWD, stated he did not put much
emphasis on these details, and that clear, detailed information that describes the impact to
health, safety, quality of life, and mission may have increased the likelihood of receiving
funds for a new fire station.




                                            50
Department of the Navy Comments




                Click to add JPEG file




                                  51
Click to add JPEG file




                 52
                           Final Report
                            Reference




Click to add JPEG file




                         Per management, the
                         comments to this
                         report are not "For
                         Official Use Only."




                 53
Click to add JPEG file




                 54
Click to add JPEG file




                 55
                            Final Report
                             Reference




Click to add JPEG file



                         Deleted, Pages 5
                         and 6




                 56
Click to add JPEG file




                 57
Click to add JPEG file




                 58
Click to add JPEG file




                 59
